             DOE/IG-0019




            Semiannual
            Report to
            Congress
             October 1, 1999, to March 31, 2000

                                        U.S. Department of Energy




U. S. D E PA RT M E N T O F E N E R G Y
O F F I C E O F I N S P E C TO R G E N E R A L
WA S H I N G TO N, D C 2 0 5 8 5
                                                                    2
1
                         At Your Service
Table of Contents


                    MESSAGE FROM THE
                    INSPECTOR GENERAL      1




                    MAJOR REPORTING
                    AREAS                  7




                    OTHER
                    ACCOMPLISHMENTS
                                           32




                    REPORTS ISSUED
                                           34




                    STATISTICS             41
                                                                  At Your Service




                                                              U.S. Department of
                                                                     Energy
                                                                    Office of
                                                              Inspector General


                                                                HOTLINE
     Did You know?

25% of investigations                                        Protect Your Investments
    open as of
                                   Tear along dotted line




  March 31, 2000,                                           Be a Good Corporate Citizen
 were a result of an
 OIG Hotline call or                                        Report Fraud, Waste, or
      letter.
                                                                    Abuse
Source: Energy Inspector General
    Project Tracking System                                  By a DOE Employee,
                                                                  Contractor
                                                                      or
                                                               Grant Recipient
                                                              Call 1-800 541-1625
                                                               Or 202 586-4073
                                                             Additional information on the OIG
                                                              can be found by visiting the OIG
                                                                website – www.ig.doe.gov
                                                                                At Your Service



                                                                      T
Message From The Inspector General
                                                                           he Department of Energy (Department) provides
                                                                      innovative solutions to the scientific, national security, energy
                                                                      and environmental challenges facing the Nation. The Office
                                                                      of Inspector General (OIG) supports the Department in
                                                                      meeting these challenges. Thanks to the dedication of our
                                                                      staff, we have been very successful in performing our
                                                                      statutory oversight roles.

                                                                      The OIG has made recommendations which improved
                                                                      operations, facilitated positive change, and combated
                                                                      unlawful activity within the Department. Additionally, our
                                                                      activities had a positive dollar impact. Our work during the
                                                                      period resulted in over $306 million in recoveries and
                                                                      potential savings. Over $30 million of these funds have been
                                                                      or will be returned to the Federal Government.

                                                                      Major Trends and Issues
                                                                      Our work has focused on areas critical to the Congress, the
                                                                      Administration, and the Department. During the past six
                                                                      months, the Secretary and Congress have continued to rely on
                                     Gregory H. Friedman              the OIG to perform sensitive, complex tasks in short periods
                                      Inspector General               of time. In addition, we have continued to assist the
                                                                      Department in improving those areas of historical concern.
                                                                      Most notably this includes efforts in program management
                                                                      and operations; safeguards and security; intelligence/
                                                                      counterintelligence; environment, safety, and health; contract/
                                                                      grant administration; information technology management;
                                                                      financial management; and Qui Tams. The following are
                                                                      highlights of these efforts.

                                                                      Program Management and Operations
                                                                      The Department continues to face unique challenges in
                                                                      program management and daily operations. On March 13,
                                                                      2000, Secretary Richardson announced a series of
                                                                      management reforms that are intended to lead to short- and
                                                                      long-term savings and improve the efficiency of operations at
                                                                      the Department. The reforms are aimed at improving
                                                                      administrative management, streamlining operations and
                                                                      better managing Department contractors. The initiatives

                                      Additional information on the OIG, including the full text of its public reports and Department
                                                                                                                                        1
                                      management’s comments, can be found on the OIG website – www.ig.doe.gov
                                      At Your Service


                               include: (1) improving the security, storage, and handling of
                               nuclear materials by consolidating them at fewer locations,
                               (2) implementing electronic requisition systems, (3)
                               integrating procurement, financial, and human resources
                               systems, (4) reducing the number of contractors detailed to
                               Washington, D.C., and consolidating their office space, (5)
                               improving oversight of contract management and ensuring
                               that contractor fees have a stronger relationship to
                               accomplishment of priorities, and (6) improving management
                               of construction and establishing a design fund to provide
                               more accurate cost baselines for new projects.

                               Many of the Secretary’s initiatives are based on findings and
                               recommendations in Inspector General reports. In fact, a
                               number of these initiatives represent longstanding
                               Department problems about which our office has issued
                               multiple reports and repeat findings. The Secretary consulted
                               us on this effort, and members of the OIG staff did a
                               thorough job in detailing the Department’s management
                               challenges.

                               Safeguards and Security

                               The National Nuclear Security Administration (NNSA) was
        Did You Know?          established by statute as a semiautonomous agency of the
                               Department, effective March 1, 2000. The NNSA is
     On October 5, 1999,       responsible for managing the nation’s nuclear weapons, non-
      the President signed     proliferation, and naval nuclear propulsion programs.
    Public Law 106-65, the
        National Defense       Since its inception, the OIG has played a key role in
     Authorization Act for
                               identifying safeguards, security, and related concerns at the
                               Department. During this reporting period, we prepared a
    Fiscal Year 2000. Title
                               strategy for providing audit, investigative, and inspection
         32 of the Act         services to the NNSA. This strategy identifies necessary
    establishes the National   actions to ensure full integration of the OIG statutory charter
        Nuclear Security       with the NNSA mission and includes a supplemental Fiscal
         Administration.       Year 2000 performance plan summarizing our work relevant
                               to the NNSA.

                               We are continuing to pursue reviews that address the special
                               needs, vulnerabilities and programmatic risks of both the



2
                               At Your Service


                        Department and NNSA, including reviews of crosscutting
    The Department’s    issues affecting both entities.
NNSA Implementation
Plan may be found at:   Intelligence/Counterintelligence
  www.nnsa.doe.gov
                        We continued to concentrate on areas impacting intelligence
        and             and counterintelligence. Specific activities included
                        intelligence reporting required by Executive Order 12863,
    The OIG’s NNSA      "President's Foreign Intelligence Advisory Board," and work
                        performed pursuant to the National Defense Authorization
strategy may be found
                        Act for Fiscal Year 2000. The Act provided that not later
 at: www.ig.doe.gov/    than March 30 of each year, beginning in 2000, the President
    pdf/nnsa.pdf.       shall submit to Congress an annual report on the U.S.
                        Government's policies and procedures with respect to the
                        export of technologies and technical information with
                        potential military applications to countries and entities of
                        concern. Under the Act's provisions, to assist in this process,
                        annual audits in this area are to be conducted by the
                        Inspectors General of the Departments of Energy, Commerce,
                        Defense, and State. An interagency working group composed
                        of representatives from those agencies selected the export
                        license process for visits and assignments of foreign nationals
                        as the topic for the year 2000 audit. The interagency report
                        and our report were both issued in March 2000.

                        The Act also required the President to submit a report to
                        Congress that includes an assessment of the adequacy of
                        counterintelligence measures to protect against the acquisition
                        of U.S. technology and technical information with potential
                        military applications by countries and entities of concern. We
                        participated in an interagency working group that also
                        included the Inspectors General of the Departments of
                        Commerce, Defense, State, Treasury and the Central
                        Intelligence Agency that was established to conduct the
                        assessment. Our report, as well as that of the interagency
                        group, were both issued in March 2000.

                        Environment, Safety and Health
                        The Department is committed to addressing the
                        environmental legacy of over 50 years of nuclear weapons
                        production by the Department and its predecessors. As a


                                                                                  3
                                            At Your Service


                                    result, the Department is expending over $6 billion annually
                                    for environmental quality programs. To assist with the
                                    operational efficiency of this cleanup effort, we continue to
         Did You Know?              focus significant resources on reviews pertaining to waste
                                    disposal, groundwater monitoring, and low level and
    Approximately 103,000           radioactive waste management programs.
     contractor employees
         work for the               Contract/Grant Administration
    Department managing/
        conducting the              We also emphasized reviews of Department contract
    operations of its major         management during the period. For example, consistent with
                                    the Secretary’s initiative to improve management of
           facilities.
                                    information resources, we recommended that the Department
    Source: Department of Energy
                                    emphasize the use of Departmentwide contracts and
     “Annual Report on Contractor   standardize commercial off-the-shelf software packages as a
     Work Force Restructuring—FY    means to reduce the costs of its operations. We also reviewed
                1999”               and reported on such critical areas as outsourcing
                                    opportunities, billing procedures, and competitive
                                    procurement mechanisms.

                                    Information Technology Management
                                    During the reporting period, we identified cyber security
                                    threats at a number of the Department’s sites. We identified
                                    weaknesses in password control, configuration management,
                                    and outdated or improperly configured software on a number
                                    of the systems reviewed. Based on our recommendations, the
                                    Department initiated action to correct observed weaknesses
                                    and decrease the risk of damage to its networks by malicious
                                    or unauthorized users. Focusing on the future and the
                                    Department’s increased reliance on information technology,
                                    we are making every effort to increase our expertise in the
                                    information security arena. We are pleased with the progress
                                    to date.

                                    Financial Management
                                    The OIG conducts reviews to ensure proper accountability
                                    over Department financial resources. During the period, we
                                    fulfilled our statutory responsibility to audit the Department’s
                                    consolidated financial statements for FY 1999 by the
                                    established deadline. We issued an unqualified opinion rather


4
                               At Your Service


                       than a qualified opinion as in the previous year, reflecting
                       significant efforts by the Department to improve controls over
                       its environmental liability estimating process.

                       Qui Tam Cases

                       Qui Tam cases allow a private citizen to file a suit in the name
                       of the U.S. Government for fraud by Government contractors
                       and other entities. Since 1996, the OIG has been instrumental
                       in assisting the Department of Justice in Qui Tam cases.
                       Currently we are working with the Department of Justice on
                       24 Qui Tam cases with an estimated potential recovery value
                       of $101 million. These are highly resource intensive
                       investigative initiatives.
   Did you know?
                       Other OIG Activities
The OIG received 28
     requests for      In addition to the major reporting area accomplishments, we
                       participated in several other noteworthy activities.
  information from
  Congress, briefed
                       Congressional Responses
Committee staff on 5
    occasions, and     We continued our strong commitment to support Congress
provided information   and its need for information. During the reporting period, we
  to Congress in 43    provided information, briefings, and reports to Congress in a
                       timely manner. In addition, at the request of the House
      instances.
                       Committee on Armed Services, Subcommittee on Military
                       Procurement, the Inspector General testified at a hearing on
                       the Los Alamos National Laboratory espionage inquiry.

                       Semiannual Report and Website Redesign
                       We enhanced the style and format of both our Semiannual
                       Report and webpage. This Semiannual Report is now more
                       reader-friendly and contains a “ Message from the Inspector
                       General” section summarizing our major accomplishments.
                       Our redesigned webpage provides information about the
                       OIG’s mission, organization, strategic plan, reports,
                       directives, IG testimony before Congress, employment
                       opportunities, and other activities.




                                                                                  5
                           At Your Service


                    Recognition of Accomplishments
                    Our successes would not have been possible without the hard
                    work of our dedicated staff. We are extremely proud of the
                    accomplishments and dedication of our employees. For
                    example, several OIG special agents received DOJ awards for
                    valuable contributions to criminal and civil investigations.
                    One case involved a high visibility fraud investigation
                    involving a grantee, and another involved a complex
    effectiveness
                    environmental investigation. In another case, the Federal
                    Bureau of Investigation (FBI) recognized one of our special
                    agents for outstanding contributions for work on an
                    environmental crimes task force.

                    In addition to their regular duties, OIG employees continued
                    to demonstrate dedication to their communities through
                    numerous volunteer service activities. For example, OIG
                    employees packaged food for an area food bank, served as
                    officials for the Department’s National and Regional Science
                    Bowl Competitions, served as readers for the blind, and
                    adopted needy families during the holiday season.




                    As we look toward the future, the OIG will continue to focus
                    on areas most critical to the Department’s success. We are,
                    and continue to be, “at your service.”




6
                                                                  At Your Service



                                                        D
MAJOR REPORTING AREAS
                                                              uring this reporting period, the OIG invested its
                                                        resources in the following major reporting areas: Program
                                                        Management and Operations; Safeguards and Security;
                                                        Intelligence/Counterintelligence; Environment, Safety, and
                                                        Health; Contract/Grant Administration; Information
                                                        Technology Management; Financial Management; and
                                                        Administrative Safeguards.

                                                        In report summaries that follow, where it is indicated that
                                                        management has not concurred with OIG recommendations,
                                                        appropriate followup action will be pursued. When audit and
                                                        management inspection reports contain recommendations
                                                        with which management has agreed, corrective actions are
                                                        tracked by the Department until completed. When there is
                                                        disagreement between Department management and the OIG,
                                                        the Department must prepare a Management Decision
                                                        describing its position and any alternative actions.
                                                        Management Decisions are reviewed by the Chief Financial
                                                        Officer (CFO). If disagreements persist, the CFO may
                                                        convene a meeting of the Departmental Internal Control and
                                                        Audit Review Council (DICARC), which consists of the
                                                        CFO, the Inspector General and other management
                                                        representatives. The DICARC works to achieve mutually
                                                        agreeable resolution.

                                                        A discussion of notable reviews conducted in each area
                                                        follows:



                                                        P ROGRAM MANAGEMENT AND
                                                        OPERATIONS
                                                        The OIG reviews the development, implementation,
                                                        administration, and operation of Department programs.
                                                        These efforts directly support the major Secretarial initiative
                                                        to streamline Department operations.




                        Additional information on the OIG, including the full text of its public reports and Department
                        management’s comments, can be found on the OIG website – www.ig.doe.gov                           7
                                           At Your Service


                                    Hanford Site Needs Better Management of Waste
                                    Remediation
                                    Considering the estimated $47 billion life-cycle cost of the
                                    tank remediation program at Hanford and the results of a
                                    1993 audit of the management of the Hanford tank waste
                                    program, the OIG recently conducted another audit to
                                    determine whether the Department has a complete and
                                    integrated planning, budgeting, and management approach to
                                    achieve its goals. Although the Department has made some
                                    progress, important elements of an integrated management
                                    approach were not in place. For instance, the project baseline
                                    has never been completed or validated. Without an integrated
                                    approach to the tank waste remediation project, the
                                    Department may be unable to control, predict, explain, or
                                    defend future changes to cost and schedule. Changes have
                                    already occurred in this complex project, significantly
                                    increasing life-cycle cost estimates. For example, the life-
                                    cycle cost estimate ranging from $30 to $38 billion included
                                    in the FY1996 Environmental Impact Statement has
Aerial View of Hanford Site’s 300   increased to $47 billion. Although $3.8 billion has already
Area                                been expended on this project, Hanford remains the only
                                    Department site without tank waste treatment capabilities.

                                    The OIG recommended that the Office of River Protection
                                    (ORP), Hanford Site, develop and put into place an integrated
                                    project baseline to include all activities, a critical path, and
                                    provisions for key decision evaluations. In addition, the OIG
                                    recommended that the ORP and the Richland Operations
                                    Office negotiate realistic milestone dates with the State of
                                    Washington Department of Ecology and the Environmental
                                    Protection Agency. The Assistant Secretary for
                                    Environmental Management concurred with the report
                                    finding and recommendations. (IG-0456)

                                    Improper Use of On-site Laboratories Results in
                                    Unnecessary Costs
                                    The Department’s Richland Operations Office (Richland) had
                                    not made the best use of the capabilities of the on-site
                                    analytical laboratories in support of the environmental
                                    restoration and waste management programs at the Hanford


8
                     At Your Service


             Site (Site) in two instances. In one instance, analytical work
             was unnecessarily transferred from one on-site laboratory to
             another. The receiving laboratory, however, had to acquire
             the capability to do the work. This resulted in an unneeded
             expansion of laboratory capabilities. In the other instance,
             Richland allowed the contractors to use an off-site laboratory
             to analyze groundwater samples rather than directing them to
             use a less expensive on-site laboratory with the same testing
             capability. As a result of the transfer, Richland incurred
             unnecessary costs of approximately $550,000.
             The use of the on-site laboratory for groundwater samples
             would allow Richland to better use $525,000 annually.
efficiency
             The OIG recommended that Richland and the Office of River
             Protection Managers ensure that cost analyses are performed
             using the best available data before making decisions
             affecting Site programs, and that decisions on proposals
             involving analytical laboratories are made timely.
             Department management agreed with both recommendations.
             (WR-B-00-01)

             Decisions Regarding the Reuse of Property and
             Facilities Need More Thorough Analysis
             Management officials at the Albuquerque Operations Office
             (Albuquerque) were making premature decisions regarding
             the reuse of property and facilities at the Grand Junction site.
             For instance, they decided to transfer all the property and
             facilities to a local community entity except one building that
             will be transferred to the U.S. Army Reserve by September
             30, 2000. Albuquerque made these decisions before
             completely analyzing its own future needs for space and
             determining whether other agencies would be interested in
             reusing unneeded space. Although the Department is
             committed to assisting the local communities adversely
             affected by downsizing, one way to accomplish that objective
             is to identify other Federal uses for the facilities.

             While the OIG recognizes that analytical results represent
             only one aspect of informed decision making, the OIG
             believes it is an important one and is concerned, therefore,
             that without a thorough analysis, the Department will have no


                                                                        9
                                              At Your Service


                                      assurance and, in fact, may not be able to justify that its
                                      decisions are in the best interest of the Government, the
           Did you know?              taxpayers, or the local community.

          As part of its              The OIG recommended that the Albuquerque Operations
        performance audit             Office (l) conduct the necessary analysis of the site and
        function, the OIG
                                      consider the needs of the Department and other Government
                                      agencies before taking any actions to lease or dispose of
          evaluates the
                                      unneeded, unused, surplus, or excess real property, and (2)
           Department’s               stop all decisions or actions until the necessary analysis is
      implementation of the           done to identify what direction will provide the best reuse of
            Government                the property excess to its needs. Management did not concur
         Performance and              with the finding or recommendations because it contends that
      Results Act (GPRA) of           it has made only general rather than specific decisions to
              1993.                   dispose of the property. (WR-B-00-02)

                                      Office of Science Still Not Evaluating Project
                                      Progress Based on Formal Metrics in Work
           Did you know?              Authorizations

     The Office of Science            The Office of Energy Research, now known as the Office of
       expends $3 billion             Science, instituted some corrective actions in response to the
      annually for energy-            recommendations in an August 1995 report on the Audit of
                                      Program Administration by the Office of Energy Research. In
      related research at
                                      response to the prior audit, the Department improved its
      universities, national          administrative process for funding research projects. In
        laboratories, and             FY1999, work authorizations clearly identified amounts and
         private research             the particular projects that were funded. The Department,
             facilities.              however, did not take appropriate action in response to the
                                      OIG’s second recommendation, which concerned the need to
     Source: DOE Budget Highlights,   evaluate project progress based on formal metrics in work
             February 2000            authorizations. As was the case in 1995, the Office of Science
                                      was not evaluating research projects using milestones or
                                      metrics. The Department contended that basic research did
                                      not lend itself to the identification of scheduled activities or
                                      numerical measures. Without such measures, the Department
                                      was not in a position to fully evaluate the performance and
                                      progress of certain research projects managed by the Office of
                                      Science.

                                      Management did not concur with the finding and
                                      recommendations. It stated that (1) research progress should


10
                  At Your Service


          not be measured only against performance criteria and metrics
          at the individual task level, (2) it uses peer reviews to ensure
          research programs are of high quality and meet Department
          objectives, and (3) the use of milestones and metrics would be
          a waste of the taxpayers’ money and would be potentially
          destructive to the quality of the subject research.

          The OIG agrees that there are a number of methodologies that
          should be used to measure research progress. While the OIG
          acknowledges that the development and execution of metrics
          to evaluate basic research projects is a challenging task, the
          results of the OIG’s audit support the view that they can play
          an important role in determining research progress. This is
economy
          especially true if the metrics are used in conjunction with
          other evaluative factors such as peer reviews, annual reports,
          and research presentations. (IG-0457)

          Contractor Improperly Used $358,000 From
          Overhead Accounts to Fund a Chem-bio Work-
          for-Others Project
          The Department’s Chem-Bio Facility at the Oak Ridge
          National Laboratory includes a laboratory for research with
          chemical warfare agents and also a Biosafety Level 3 (BSL-3)
          laboratory for research with biological warfare agents. The
          facility was installed as part of a work-for-others (WFO)
          contract with the U.S. Army. The facility’s managing
          contractor improperly used $358,000 from division overhead
          accounts to fund the WFO project. Further, the Chem-Bio
          facility’s BSL-3 laboratory was constructed without an
          environmental assessment required by the National
          Environmental Policy Act (NEPA) of 1969.

          The OIG recommended that the Manager, Oak Ridge
          Operations Office (ORO), take corrective action to ensure
          (l) ORO division overhead funds are recouped, (2) other
          ORO WFO projects have not been funded with overhead
          funds, (3) documentation for future projects requiring NEPA
          compliance be completed in planning phases, (4) an
          environmental assessment or other actions necessary to
          ensure NEPA compliance be completed, and (5) the
          Chem-Bio facility and its contents are secure. Depart-


                                                                    11
                            At Your Service


                     ment management concurred with the findings and
                     recommendations and initiated appropriate corrective
                     actions. (INS-O-00-01)



                     S    AFEGUARDS AND SECURITY
                     Recent events have focused the attention of the Congress and
     effectiveness
                     the Department on national security issues.

                     Inspection Identifies Weaknesses In Excessing
                     and Selling a Supercomputer
                     At the request of the Secretary of Energy, the OIG reviewed
                     the sale to a Chinese national and the repurchase of an
                     INTEL Paragon XPS supercomputer (Paragon) by Sandia
                     National Laboratories (Sandia). The Paragon had originally
                     been purchased in 1993, in part, because it was a “cutting
                     edge research instrument essential to the Department’s
                     nuclear weapons program.” If reassembled after disposal, the
                     Paragon could have been one of the 100 fastest computers in
                     the world. Concerns were raised that the sale of the
                     supercomputer could be detrimental to the national security
                     of the United States.

                     The process used to sell the Paragon was seriously flawed.
                     Notably, Sandia did not treat the Paragon as high risk
                     property, and thus, did not perform an evaluation of the
                     Paragon for any significant risks to national security and
                     nuclear non-proliferation as required by the Property
                     Management Regulations. In addition, Sandia sold the
                     Paragon with approximately 130 “unclassified” data storage
                     disks that were not sanitized prior to sale.

                     A fundamental weakness in the sale of the Paragon was that
                     senior level management officials were not aware of the sale.
                     Therefore, these officials were not afforded the opportunity
                     to exercise management judgment on how to dispose of this
                     high risk property.

                     The OIG recommended that the Albuquerque Operations
                     Office address weaknesses in Sandia’s High Risk Property

12
                     At Your Service


             Control Process and Sandia’s Property Management Process.
             The OIG also recommended that the General Counsel issue an
             opinion on whether Department contractors may inquire into
             the possible foreign ownership of companies that bid on
             excess property. Department management concurred with the
             recommendations. (IG-0455)



             INTELLIGENCE/
             COUNTERINTELLIGENCE
efficiency
             Recent events have focused the attention of the Congress and
             the Department on intelligence and counterintelligence issues.

             Export License Application Process Needs
             Additional Improvements
             Consistent with a provision in the National Defense
             Authorization Act for Fiscal Year 2000, the OIG participated
             in an interagency review of export controls. Specifically, the
             OIG reviewed actions taken by the Department in response to
             selected concerns regarding the export license process for
             foreign nationals (deemed exports) identified in a May 1999
             OIG report.

             Although Department management has improved the process
             for determining whether an export license application may be
             required for the visit or assignment of a foreign national to a
             Department site, additional actions are needed. Clarification
             is needed from the Department of Commerce regarding when
             a visit or assignment would require an export license. Also,
             the Department’s policy implementation, as reflected in the
             current Department Notice on foreign visits and assignments,
             needs clarification regarding roles, responsibilities, and
             accountability for obtaining an export license for foreign
             nationals.

             Further, because of shortcomings in the Department’s formal
             data gathering system, Department officials are not aware of
             the precise number of foreign nationals visiting the
             Department’s laboratories. This parallels an issue identified


                                                                       13
                                            At Your Service


                                     in the May 1999 OIG report and was a matter of concern to
                                     the Senate Governmental Affairs Committee during a June
                                     1999 hearing. In addition, export license applications were
                                     not submitted for the assignments of several foreign nationals
                                     at one National Laboratory that may have required export
          Did you know?              licenses because of the information being accessed or the
                                     citizenship or affiliation of the foreign nationals. There was a
      The Export Licensing           similar finding in the OIG’s May 1999 report.
     and Counterintelligence
       Implementation Plan           Department management has initiated, or is in the process of
     reviews were conducted          initiating, appropriate corrective actions. (IG-0465)
         pursuant to the
         National Defense            Counterintelligence Implementation Plan
      Authorization Act for          Recommendations Not Completed
         FY 2000, which
                                     As part of an interagency review conducted pursuant to the
       required interagency
                                     National Defense Authorization Act for Fiscal Year 2000, a
     reviews of the transfer         follow-up review was conducted of the Department’s
            of sensitive             execution of its Counterintelligence Implementation Plan.
          technologies to            A July 1999 OIG review had found that 28 of 46
      countries of concern.          recommended actions to reorganize and improve the
                                     Department’s counterintelligence program had been
       Source: National Defense      implemented. The follow-up review determined that 10
     Authorization Act for FY 2000   recommendations were still open. The OIG identified
                                     weaknesses in the implementation of 2 of the 10 open
                                     recommendations and suggested actions to address those
                                     weaknesses.

                                     The Department’s central data base for tracking foreign
                                     nationals, the Foreign Access Records Management System
                                     (FARMS), is unable to provide the precise number of foreign
                                     visitors or assignees at Department facilities. Therefore, the
                                     OIG suggested that Department officials ensure that, at a
                                     minimum, Department sites are required to enter data
                                     concerning foreign visits and assignments into FARMS or a
                                     designated central Department database. Also, there have
                                     been delays in obtaining clearances for Department field
                                     counterintelligence analysts to access Sensitive
                                     Compartmented Information (SCI), which impacts operational
                                     performance. The OIG suggested that the Department
                                     expedite processing of SCI clearances for the field
                                     counterintelligence program managers and analysts.


14
                                    At Your Service


                             The interagency group was concerned about whether
                             information was being shared among U.S. Government
                             agencies. The OIG confirmed that the Department’s Office of
                             Counterintelligence and other Government entities mutually
                             share intelligence information. In addition, analyses
                             developed by the Department’s Office of Intelligence that
                             might assist the Department and other Government entities to
                             counter the illicit transfer of U.S. technology to foreign
                             governments are being made available to interested U.S.
                             entities.

                             Department management generally agreed with the OIG
                             report. (IG-0464)



                             E  NVIRONMENT, SAFETY, AND
                             HEALTH
    Did you know?
                             The OIG has conducted significant reviews of environmental
The Department has           issues and problems in support of the Department’s
budgeted $6.3 billion        commitment to clean up sites that supported nuclear weapons
  for environmental          production and to safely dispose of spent nuclear fuel.
 quality in FY 2000.
                             Waste Incinerator at the Idaho National
   Source: DOE Budget        Engineering and Environmental Laboratory
 Highlights, February 2000   (INEEL) Operates at Below “Permitted or
                             Attainable” Capacity and Generates Excessive
                             Costs
                             Lockheed Martin Idaho Technologies Company (LMITCO)
                             did not operate the Waste Experimental Reduction Facility
                             (WERF) at the INEEL incinerator at the “attainable” annual
                             burn rate. Between April 1996 and September 1998 the
                             Department spent $13.5 million to incinerate 786,000 pounds
                             of waste. Had the Department been more aggressive in
                             incinerating the waste, the 786,000 pounds could have been
                             incinerated in less than 1 year, at a savings of about $8.4
                             million. Furthermore, the waste could be treated more
                             economically at commercial facilities, once these treatment
                             options become available in June 2000. The Department
                             could close the WERF Incinerator in June 2000 and use

                                                                                    15
                      At Your Service


               commercial treatment for the incinerable waste in inventory
               at that time. Closure would be 39 months earlier than
               planned, and would reduce operating costs by $18.1 million.
               Department management agreed with the OIG finding and
               two of the three recommendations. Management did not
               concur with the recommendation to close the WERF
               Incinerator. (IG-0454)

               Waste Incinerator at Savannah River Not
               Operating Efficiently or Cost Effectively
               Westinghouse Savannah River Company (Westinghouse) did
     economy
               not operate the Consolidated Incinerator Facility (CIF) at the
               Savannah River Site (Site) at its permitted capacity. In FYs
               1997 and 1998, Westinghouse operated the CIF at about 8
               percent of capacity to minimize the risk of unexpected errors
               and equipment failures during system start-up and to
               accommodate special handling and disposal requirements
               associated with burning chemicals listed in the Resource
               Conservation and Recovery Act. In FY1999 and beyond,
               Westinghouse plans to operate the CIF at no more than 32
               percent capacity. The Department designed the CIF to
               incinerate more waste than the Site had available for
               treatment. Although Westinghouse may never have sufficient
               waste available to operate the CIF at its permitted capacity,
               there are several process improvements that could increase
               the efficiency of the CIF and significantly reduce the total
               operating costs to incinerate the projected waste streams by
               $595 million.

               The Department concurred with three of the four
               recommendations. When management’s corrective actions are
               completed, $576 million should be saved. (IG-0453)

               Department Not Obtaining Bioassay Analyses At
               Lowest Possible Prices
               Department contractors were not obtaining bioassay analyses
               at the lowest prices available. Although discounts were
               available under Departmentwide subcontracts, two of the
               Department’s contractors issued their own subcontracts for
               bioassay analyses with rates that were higher than the


16
                        At Your Service


                Departmentwide rates. Also, three contractors paid
                substantially different rates for similar or identical analyses
                performed by the same subcontractor. These conditions
                occurred because the Department did not require contractors
                to use the Departmentwide subcontracts and consolidate
                requirements into a single, cost-effective basic ordering
                agreement. As a result, the Department incurred unnecessary
                costs of about $495,000 during FYs 1998 and 1999. Also, the
                OIG could not determine if the Department obtained bioassay
effectiveness
                analyses at the lowest prices available for 74 percent of the
                analyses reviewed because the three in-house laboratories
                were not required to capture the actual cost of specific
                analyses performed. As a result, the Department cannot
                determine whether it is more cost-effective to continue
                performing bioassay analyses in-house or subcontract the
                work to commercial laboratories.

                The OIG recommended that the Office of Management
                Systems, Office of Procurement and Assistance Management,
                in conjunction with the Integrated Contractor Purchasing
                Team, develop a procurement strategy to award one or more
                Departmentwide purchasing agreements that will assure the
                availability and accessibility of the fullest range of high
                quality, timely, and cost-effective bioassay services.
                Management agreed with the audit findings and
                recommendations and initiated corrective actions. (IG-0458)

                A More Centralized Approach To Managing
                Groundwater Activities Could Reduce Operating
                Costs
                The Department’s sites failed to adopt innovative
                technologies and approaches to groundwater monitoring,
                specifically relating to well installation, sampling operations,
                and laboratory analysis. Information on innovative
                techniques was not effectively disseminated, evaluated for
                applicability, and implemented when appropriate.
                Consequently, the Department did not conduct groundwater-
                monitoring activities as economically as possible, and
                opportunities to reduce operating costs by about $3.6 million
                annually and to improve groundwater monitoring efficiencies
                were not realized. Furthermore, the Department had not


                                                                           17
                         At Your Service


                  assigned a single Headquarters organization with overall
                  responsibility for ensuring that groundwater activities
                  Departmentwide were as cost effective as possible.

                  The OIG recommended that the Department designate a
                  Headquarters organization to ensure that field elements are
                  aware of and utilize “best practices” in groundwater
                  monitoring activities. Management agreed with the
                  recommendation and indicated that corrective actions were
                  being taken or had been planned. (IG-0461)

                  Funding of Low-Level Radioactive Waste Forum
     efficiency
                  Should be Discontinued
                  Under the Low-Level Waste Policy Act (Act) of 1980, the
                  Department was required to provide technical assistance to
                  support States and compact regions in developing new
                  disposal sites for commercial low-level radioactive waste. In
                  1990, the Department was also directed by Congress to
                  provide assistance in establishing an independent, self-
                  directed association through which States and compact
                  regions could accomplish low-level waste disposal
                  objectives. Since 1982, the Department has spent over $80
                  million to provide technical assistance to States and compact
                  regions. The Department has provided $5.4 million since
                  1990 to fund the Low-Level Waste Forum, an independent
                  association for information exchange between State and
                  compact region officials. The Low-Level Waste Program, as
                  envisioned by Congress, has not come to fruition; in
                  particular, no permanent disposal site has been developed by
                  the States and compact regions. The Department has
                  provided assistance to the Radioactive Waste Forum beyond
                  the duration envisioned by Congress.

                  The OIG recommended that the Assistant Secretary for
                  Environmental Management obtain clarification of the intent
                  of the Congress regarding the expenditure of funds in
                  developing a storage site and discontinue funding the Forum
                  and technical assistance until clarification is obtained. The
                  Assistant Secretary for Environmental Management
                  disagreed with the audit conclusions and recommendations,
                  stating that its interpretation of the Act permitted the


18
                                        At Your Service


                                 Department to fund a range of technical assistance activities
                                 related to the management of low-level radioactive waste.
                                 (IG-0462)



                                 C  ONTRACT/GRANT
                                 ADMINISTRATION
                                 The OIG strongly emphasized contract management reviews
     Did you know?               during the period. The Secretary has announced that
    The Department               improving the management of its contractors is a major
 contracts 94% of its            Department initiative.
 budget. In FY 1999,
Department contracting           Management and Operating (M&O) Contractors
  totaled $17 billion.           Not Universally Using Make-or-Buy and Cost-
                                 Benefit Analyses
Source: Department of Energy
   “Annual Procurement and
                                 Only one of four audited Department M&O contractors
Financial Assistance Report—FY
             1999”               identified those functions for which make-or-buy
                                 opportunities existed and performed cost-benefit analyses,
                                 as required by the Department. The other three contractors
                                 had either not included all functions in their make-or-buy
                                 plans or had not scheduled cost-benefit analyses for many
                                 outsourcing candidates. This occurred because program
                                 offices did not provide M&O contractors with guidance to
                                 assist in the identification process, and procurement
                                 officials did not monitor contractor implementation of the
                                 program adequately. As a result, cost saving opportunities
                                 were missed. The OIG estimated that the Department
                                 could save up to $5.3 million if cost-benefit analyses are
                                 made. Additional cost savings are likely if the three
                                 contractors reviewed the functions that they had excluded
                                 from the make-or-buy process, which were valued at $1.3
                                 billion. Substantial additional savings are possible if the
                                 make-or-buy concept is fully adopted at all Department
                                 sites.

                                 The OIG recommended that the Contract Reform and
                                 Privatization Project Office, in conjunction with Headquarters
                                 program managers and the Office of Procurement and
                                 Assistance Management, develop program specific guidance


                                                                                          19
                                            At Your Service


                                     for evaluating contractor functions and monitor field
                                     implementation of contractor make-or-buy efforts. The Office
                                     of Contract Reform and Privatization Project agreed with and
                                     proposed corrective actions for the recommendations.
                                      (IG-0460)

                                     Outsourcing Opportunities at Los Alamos
                                     National Laboratory Missed
                                     Los Alamos National Laboratory (Los Alamos) had not
                                     identified outsourcing opportunities for its support services.
                                     Of the 184 support services Los Alamos reviewed, it
                                     determined that only 4 had outsourcing potential. At least
                                     128 of the support services reviewed by the OIG, however,
                                     had outsourcing potential. Los Alamos did not identify these
                                     services because its screening process was flawed. Because
                                     this process was the initial step leading to cost-benefit
                                     analyses, Los Alamos did not conduct such analyses on the
                                     majority of its support services. Thus, Los Alamos cannot
                                     ensure that about $128 million spent on these services
                                     represent the least cost to the Government.

                                     The OIG recommended that the Albuquerque Operations
                                     Office direct Los Alamos to revise the screening process to
                                     objectively identify all support services having outsourcing
                                     potential to (1) conduct a cost-benefit analysis on outsourcing
                                     candidates to determine the most economical method for
Aerial view of Los Alamos National   obtaining the services, (2) take appropriate action based on
Laboratory                           the analyses to obtain the services at the least cost to the
                                     Government, and (3) periodically review new or retained
                                     services to determine if they have outsourcing potential.
                                     Management concurred with the finding and
                                     recommendations. (WR-B-00-03)

                                     Charitable Giving Requirements
                                     During a limited review of three solicitations and
                                     corresponding contracts awarded by the Department, the OIG
                                     discovered clauses requiring charitable giving by the
                                     contractors. These provisions were in addition to contractor
                                     requirements for local economic development. These
                                     requirements may undermine the spirit of Federal and


20
                  At Your Service


          Department acquisition policies, which treat contractor costs
          associated with charitable giving as expressly unallowable.
          These provisions may also create a perverse incentive to
          award contracts (or determine fees) based not only on
          technical merit, but also on the extent to which the contractor
          provides financial support to local charitable organizations.
          Further, these provisions may distract the affected contractors
          from the core tasks they were retained to perform, such as
          environmental remediation and waste management.

          The OIG recommended that the Department identify all
          contracts with charitable contribution provisions and evaluate
          whether they are in the best interest of the Government.
economy

          (HQ-L-00-01)

          False Claims by a Department Contractor Result
          in a Civil Settlement of $35 Million
          A task force investigation based on an allegation in a Qui
          Tam action against a Government architect and engineering
          contractor determined that the contractor improperly billed
          the Federal Government for sale/lease back expenses.

           A multi-agency task force investigation disclosed that the
          contractor sold its corporate facility in 1983, but continued to
          occupy the building on a sale/lease back arrangement. After
          the sale, the contractor charged its Government customers the
          full leased costs allocated to the performance of the
          Government contracts. The leased costs were higher than the
          costs the contractor incurred when it owned the facility.

          According to the Federal Acquisition Regulations, the rental
          costs under a sale/lease back agreement are allowable up to
          the amount the contractor paid while retaining title to the
          facility. Since 1983, the contractor’s overbilling has
          impacted approximately 120 Department contracts and
          subcontracts, as well as additional contracts with other
          Federal agencies.

          Under the terms of the civil settlement agreement, the
          contractor will pay the Federal Government $35 million.
          Single damages to Federal agencies totaled more than $18


                                                                     21
                                          At Your Service


                                  million, including nearly $6.6 million to be received by the
                                  Department. The remaining $16.8 million will be divided
                                  between the Qui Tam Relator, the Department of Justice, and
                                  the U.S. Treasury. (I97LL022)

                                  False Claims by a Department Subcontractor
                                  Result in a Civil Settlement of Over $1.2 Million
                                  The OIG received an internal audit report from the
                                  Department’s facility management contractor at the Pantex
                                  Facility in Amarillo, Texas, finding that a subcontractor had
                                  conspired to defraud the Government through fraudulent
                                  billings. The subcontractor provided waste disposal services
                                  to retrieve, process, and dispose of hazardous and non-
                                  hazardous wastes at Pantex. The audit report disclosed
                                  potential billing irregularities that resulted in the suspension
                                  of payment by the contractor to the subcontractor.

                                  A subsequent OIG investigation revealed that potentially
                                  fraudulent invoices were submitted by the subcontractor
                                  during the term of the contract. The subcontractor
                                  overcharged for services and equipment, double billed, and
                                  in some instances, billed the Department’s contractor for
                                  services it never performed.

                                  The U.S. Attorney’s Office for the Northern District of Texas
ntex Plant—Main
Pantex
 Pantex         Production
       Plant—Main
        Plant—Main         Area
                  Production
                   Production     accepted this case for civil prosecution. Under the terms of
Area
 Area                             the Civil Settlement Agreement, the subcontractor was
                                  ordered to pay the Government over $1.2 million which
                                  included double damages and penalties. (I94AL006)

                                  Misuse of Department Weatherization Funds by a
                                  Subgrantee
                                  A joint investigation between the Federal Bureau of
                                  Investigation and the DOE OIG determined that a subgrantee
                                  employee, who was the Chief Assistant to the Executive
                                  Director, knowingly submitted false invoices to a state
                                  weatherization program funded by the Department.
                                  As a result of the investigation, the subgrantee employee
                                  entered into a PreTrial Diversion Agreement (Agreement)
                                  with the U.S. Attorney’s Office (USAO) for the Western


22
                                               At Your Service


                                        District of Arkansas. According to the Agreement, the
                                        employee accepted responsibility for a one count violation of
                                        Title 18, U.S.C., Section 1001 (False Statements). The
                                        employee was ordered to pay $1,000 in restitution, and to
                                        continue in pretrial supervision until September 2000.
                                        As previously reported, the USAO entered into agreements
                                        with two other subgrantee employees. These two agreements
                                        resulted in a reimbursement of $2,800 to the Department’s
                                        grantee. The grantee previously reimbursed the Department a
                                        total of $75,280 for unsupported weatherization claims filed
                                        by the subgrantee. (I95AL035)

                                        Competition in Contracting Requirements
                                        Circumvented
                                        The OIG received an allegation that the Department
                                        improperly awarded a noncompetitive, multimillion-dollar
                                        contract. The Office of Nuclear Energy, Science and
                                        Technology (NE) received an unsolicited proposal from two
                                        contractors that pertained to the Department’s Depleted
                                        Uranium Hexafluoride (DUF6) Management Program and
                                        subsequently pursued award of a contract through what was
                                        then the Department’s Pittsburgh Energy Technology Center
                                        (PETC). PETC issued a site contractor a task order that
                                        covered the proposed work; that contractor subcontracted to
                                        one of the proposers to perform the work; and that proposer
                                        subcontracted with the other proposer.
Aerial View of the National Energy
Technology Laboratory (Formerly         NE did not process the unsolicited proposal in accordance
known as Pittsburgh Energy Technology   with established Department policies and procedures
Center)                                 pertaining to unsolicited proposals. Also, although other
                                        companies were known to be interested in participating in the
                                        DUF6 Management Program and were known to have
                                        technology similar to that proposed by the two contractors, a
                                        competitive procurement was not pursued. By pursuing the
                                        award of a contract through PETC, NE effectively
                                        circumvented Federal requirements designed to promulgate
                                        and ensure the appropriate use of competition in contracting.

                                        As a result, the OIG recommended that the Director of NE
                                        (1) ensure unsolicited proposals are processed in accordance
                                        with applicable Department policies and procedures and


                                                                                                23
                                       At Your Service


                                (2) ensure that, consistent with Federal requirements for
                                competition in contracting, NE solicits proposals for its DUF6
                                Management Program that will foster the Department’s
                                pursuit of effective disposition of its DUF6. Department
                                management agreed that the unsolicited proposal was not
                                handled in accordance with applicable policies and
                                procedures and stated NE intends to use competitive
                                mechanisms in the pursuit of effective disposition of DUF6.
                                (INS-O-00-02)

                                Commercial Off-the-Shelf Acquisition
                                Framework Needed by the Department
                                The Department has no framework for the acquisition of
                                commercial off-the-shelf (COTS) software, primarily because
                                it had not developed and implemented software standards or
                                effectively used enterprise-wide contracts. Department
                                offices, both Federal and contractor, acquired application and
                                operating system software that varied in type and price and
                                duplicated procurement efforts by awarding and managing
                                multiple contracts for the same product. The Department’s
                                inability to establish such a framework was due to its
                                decentralized information technology strategy and a lack of
                                organizational support. Without a framework, the
                                Department has been unable to take advantage of enterprise-
        Did you know?           wide software contracts that could result in savings of about
                                $38 million over 5 years for just one of its major desktop
      Annual Information        software suites. Utilizing such contracts for other required
          Technology            applications could also significantly increase savings. Unless
      expenditures at the       an acquisition framework is developed and implemented, the
     Department are $1.4        Department may also be unable to meet its current five-year
            billion.
                                Strategic Plan performance goals with regard to information
                                technology related savings.
     Source: DOE/CIO Website,
          http://cio.doe.gov    Management agreed with the recommendations related to
                                computer software standards and enterprise-wide software
                                licensing to improve interoperability and efficiency.
                                (IG-0463)




24
                                        At Your Service




    Did You Know?               INFORMATION TECHNOLOGY
                                MANAGEMENT
   In FY 1999 the
   Department had               The OIG continued to improve its internal technology
over 3,000 computer             expertise to promote the efficient and effective operation of
related “incidents” (a          the Department’s computer systems and protect the
                                Department’s critical infrastructures. The OIG now has the
 131% increase over
                                capability to quickly identify and take corrective actions
  FY 1998) and 130              whenever an attack or other abuse of Department and
 successful computer            Department contractor computer systems occurs.
  system intrusions,
  which is based on             Unclassified Computer Networks Are at Risk
     25% of the
                                Six Department sites had significant internal or external
  Department’s sites            weaknesses that increased the risk of their unclassified
      reporting.                computer networks being damaged by malicious attack. Each
                                site had network vulnerabilities, including poor password
Source: DOE Computer Incident   management, unnecessary access to certain powerful
  Advisory Capability FY 1999   computer services, weak configuration management, outdated
        Annual Report,
       January 15, 2000
                                software with known security vulnerabilities, and firewall
                                configuration problems. Even though the Department
                                became aware of a number of network security problems in
                                recent years, it did not issue specific network security
                                requirements until recently. In the absence of specific
                                Department requirements, sites had not implemented a
                                comprehensive network security program designed to test for
                                password or configuration management issues or other
                                internal and external vulnerabilities. The problems observed
                                increased the risk that unauthorized or malicious
                                knowledgeable insiders and external “hackers” could
                                penetrate the Department’s unclassified computing and
                                network resources.

                                The OIG recommended that the Chief Information Officer, in
                                conjunction with Lead Program Secretarial Officers and
                                Managers of various field activities, resolve to fully
                                implement the new Department Notice 205.1,
                                “Unclassified Cyber Security Program.” The OIG also
                                recommended that specific goals and performance measures
                                for improving the level of unclassified computer security


                                                                                          25
                            At Your Service


                     relating to network operations be established. Department
                     management agreed, in principle, with the OIG
                     recommendations. (IG-0459)



                     F     INANCIAL MANAGEMENT
                     The OIG reviews the management controls, accounting
     effectiveness
                     systems, and other processes that ensure that the Department
                     and its contractors exercise proper accountability over
                     Government financial resources. A major aspect of this is the
                     annual audit of the Department’s consolidated financial
                     statements as required by the Government Management
                     Reform Act of 1994.

                     Audit of the Department of Energy's
                     Consolidated Financial Statements for Fiscal
                     Years 1999 and 1998
                     The OIG audited the Department's financial statements as of
                     and for the years ending September 30, 1999 and 1998. As
                     stated in the opinion, the financial statements present fairly,
                     in all material respects, the financial position of the
                     Department as of September 30, 1999, and its consolidated
                     net cost, changes in net position, budgetary resources,
                     financial activities and custodial activities in conformity with
                     generally accepted accounting principles. Also noted in the
                     opinion is the fact that the 1998 financial statements
                     contained an exception regarding the environmental liabilities
                     line item. The Matters of Emphasis section of the opinion
                     discusses a number of uncertainties confronting the financial
                     information contained in the statements. The most significant
                     of these relates to the environmental liability estimate.

                     Since the issuance of last year's audit report, the Offices of
                     Environmental Management and Chief Financial Officer
                     expended significant effort and resources to improve controls
                     over the Department's estimating process for environmental
                     liabilities. Management satisfactorily addressed the internal
                     control weakness reported in the prior year by developing a
                     documented, complete and updated environmental liabilities


26
                     At Your Service


             estimate. These efforts resulted in a transition from a
             qualified opinion in the prior year to an unqualified opinion
             on the FY 1999 statements.

             In accordance with Government Auditing Standards, the OIG
             also issued a separate report on the Department's internal
             controls. This report discusses needed improvements to the
             financial management system at Western Area Power
             Administration (Western). Specifically, the new financial
             management system implemented by Western was not in
             compliance with Federal Financial Management
             Improvement Act requirements. This problem was
             considered a material weakness, but did not have a material
efficiency
             effect on the financial statements because of adjustments and
             corrective actions taken by the Department. In addition, there
             were three reportable conditions that did not materially affect
             the Department's financial statements for FYs 1999 and 1998:
             (1) data used for the active facilities component of the
             environmental liability estimate was not reliable, (2)
             significant weaknesses rendered computer networks
             vulnerable to malicious attacks, and (3) controls over
             performance measure information presented in the Overview
             to the financial statements needed to be strengthened.

             The OIG also issued a report on the Department’s compliance
             with applicable laws and regulations. With the exception of
             Western’s noncompliance with the Federal Financial
             Management Improvement Act, the results of OIG tests in
             this area disclosed no compliance matters reportable under
             applicable audit standards.

             A number of other issues were disclosed during the audit
             relating to the Department’s internal controls that did not
             materially affect the Department’s financial statements.
             These matters will be communicated to the Chief Financial
             Officer and the Heads of field elements in separate reports.
             The recommendations made in these reports are designed to
             strengthen internal controls or improve operating efficiencies.
             (IG-FS-00-01)




                                                                       27
                      At Your Service


               Reprogramming of Department Funds

               The OIG received an allegation that $4.5 million of $18
               million budgeted by the Department for the Interdepartment
               Radio Advisory Committee Radio Conversion to 12.5 kHz
               Project (IRAC Project) was inappropriately going to be used
               for other purposes.

               The Office of Defense Programs’ FY 1999 budget request to
               Congress identified $18 million for the IRAC Project. In
               executing its budget, the Office of Defense Programs
               reallocated $5 million of the $18 million to the Jasper Gas
     economy
               Gun Project, an unfunded project with congressional interest,
               as expressed in Conference Report 105-749. The Department
               did not consider the reallocation of funds to be a
               reprogramming and did not report it to Congress. Although
               there was no evidence of a misuse of the funds budgeted for
               the IRAC Project, based upon General Accounting Office,
               Office of Management and Budget, and congressional
               guidance, the OIG concluded that the Department’s
               redirection of the IRAC Project funds was a reprogramming
               action and that appropriate notification should have been
               made to Congress. The OIG recommended to the Chief
               Financial Officer (CFO) that appropriate notification be made
               to Congress regarding the reprogramming of IRAC Project
               funds. The CFO disagreed with the OIG’s conclusion, but
               agreed to notify Congress of the allocation of funds.
               (INS-L-00-02)



               A  DMINISTRATIVE
               SAFEGUARDS
               Administrative operations are particularly vulnerable to waste
               and abuse. During the reporting period, OIG work resulted in
               a conviction for embezzlement and another for theft.




28
                       At Your Service


                Contractor Employee Guilty of Embezzling
                Funds
                A joint investigation between the OIG and the U.S.
                Department of Labor determined that a Department contractor
                employee, who was also a former president of a labor union,
                submitted duplicate claims to the union and the individual’s
                employer at the INEEL. The claims were submitted for the
                same hours worked, and resulted in a loss of over $16,000 to
effectiveness
                the Government.

                The U.S. Attorney’s Office in the District of Idaho accepted
                this case for criminal prosecution. The contractor employee
                pleaded guilty to one count of embezzling from a labor union
                in violation of Title 29, U.S.C. § 501(c). Following the plea,
                the employee (1) made full restitution of the embezzled
                funds, (2) was fined $900, (3) was sentenced to 6 months
                home detention and 3 years probation, and (4) was prohibited
                from being a union officer for 13 years. Additionally, the
                employee was terminated from employment at INEEL.
                (I98IF001)

                Contractor Employee Guilty of Stealing
                Computers
                A former Department contractor employee, who was a
                Captain with Security Operations, stole computer equipment
                valued at approximately $3,600 from the INEEL. The
                investigation uncovered information that the thefts occurred
                during patrols and non-working hours. The employee
                admitted to various thefts at the INEEL and then resigned as a
                result of the OIG investigation.

                The U. S. Attorney's Office in the District of Idaho accepted
                this case for criminal prosecution. The contractor employee
                pleaded guilty to one count of Title 18, U.S.C., Section 641
                (Theft of Government Property). Sentencing is scheduled for
                June 2000. (I98IF005)




                                                                         29
                                      At Your Service


                               Subcontractor Employee Convicted of Theft
       Did you know?
                               In a previous Semiannual Report, the OIG reported a
     The Department’s          substantiated allegation that subcontractor employees had
         Oak Ridge             stolen copper from the Y-12 Plant, Oak Ridge, Tennessee.
        Reservation,           The subcontractor was hired to install an electrical system at
     which is home to          a Y-12 Plant construction site.
       the Oak Ridge
          National             Subcontractor employees had stolen approximately $10,900
      Laboratory, the
                               worth of copper. The District Attorney General, Anderson
                               County, Tennessee, accepted this case for criminal
      Y-12 Plant, and
                               prosecution.
          the East
         Tennessee             During this reporting period, one of the subcontractor
     Technology Park,          employees entered a plea of Nolo Contendre to Class D
       covers 35,252           Felony Theft. The employee was sentenced to 2 years
           acres.              supervised probation and ordered to pay court and
                               supervision costs. (I95OR022)
     Source: “Department of
       Energy’s Oak Ridge      Contractor Employees Used Travel Funds
     Operations” fact sheet,
          June 1, 1999         Inappropriately
                               The OIG reviewed an allegation that specified domestic
                               partners working at a National Laboratory were traveling
                               together at Government expense without an appropriate
                               business purpose or were taking vacations or conducting
                               personal business while on official travel. The OIG identified
                               three trips that in whole or part were inappropriately paid for
                               with Department funds and recommended recovery of
                               $12,333. The OIG also recommended certain actions in
                               connection with possible falsified travel documentation filed
                               by one contractor employee. Management concurred in
                               principle with the report recommendations. (S99IS022)

                               Questionable Conduct by a Senior Executive
                               The OIG reviewed a complaint that a Department Senior
                               Executive was engaging in inappropriate conduct from which
                               a close friend derived personal benefit, in violation of 5 CFR
                               2635, "Standards of Ethical Conduct for Employees of the
                               Executive Branch."



30
                    At Your Service


             The review identified a pattern of questionable conduct by
             the Senior Executive and by senior contractor staff involved
             in the matter. The OIG recommended that the responsible
             Operations Office Manager take appropriate actions to
             address the Senior Executive’s conduct and ensure senior
             Department managers are aware of their ethical obligations.
             The OIG also recommended that the Manager, in consultation
             with the General Counsel, determine whether contractor
             officials committed any ethical or contractual violations.

             The Operations Office Manager concurred with the
             recommendations and stated that senior managers would
efficiency
             receive ethics instruction and a key contractor official would
             receive a “written expression of disappointment” regarding
             the individual’s failure to report in a timely manner the
             Senior Executive’s behavior. Management decided to
             reassign the Senior Executive to a nonsupervisory Senior
             Executive position. (S00IS003)




                                                                       31
                                                                      At Your Service



                                                           Qui Tams
Other Accomplishments
                                                           The False Claims Act (Act) prohibits any person from
                                                           “knowingly” presenting “a false or fraudulent claim for
                                                           payment or approval” to the Federal Government. The Act
                                                           authorizes individual citizens to bring private suits, referred to
                                                           as Qui Tam actions, to enforce the Act on behalf of the
                              Did you know?                Government. Since 1996, the OIG has been instrumental in
                                                           assisting the Department of Justice (DOJ) in Qui Tam cases
                         The OIG is currently              in which it is alleged that a Department of Energy contractor
                          assisting DOJ in 24
                                                           has submitted false claims.
                           Qui Tam lawsuits
                           with an estimated               OIG Reorganization
                           potential recovery
                             value of $101                 Earlier this year, the OIG reorganized its operations. The
                                                           reorganization is designed to:
                                 million.
                                                                  •    address succession planning needs,
                           Source: Energy Inspector
                           General Project Tracking
                                                                  •    allow delegation of certain day-to-day
                                    System                             administrative responsibilities,
                                                                  •    clarify and integrate the criminal/ non-criminal roles
                                                                       of the OIG Offices of Investigations and
                                                                       Inspections, and
                                                                  •    place the office’s complaint coordination process in
                                                                       a unified management setting. In furtherance of this
                                                                       objective, the OIG is transferring the OIG hotline
                                                                       function from the Office of Investigations to the
                                                                       Office of Inspections.

                                                           Management Referral System
                                                           The OIG operates an extensive Management Referral System.
                                                           Under this system, selected non-criminal matters received
                                                           through the OIG Hotline or other sources are referred to the
                                                           appropriate Department manager or other Government
                                                           agency for review and appropriate action. Complaints
                                                           referred may include such matters as time and attendance
                                                           abuse, misuse of Government vehicles and equipment,
                                                           violations of established policy, and standards of conduct
                                                           violations.



                        Additional information on the OIG, including the full text of its public reports and Department
32                      Management’s comments, can be found on the OIG website – www.ig.doe.gov
                 At Your Service


          The OIG referred 164 complaints to Department management
          and other government agencies during the reporting period.
          The OIG asked Department management to respond
          concerning the actions taken on 72 of these complaints.

          Intelligence Activities

          The OIG issued two quarterly intelligence reports pursuant to
          Executive Order 12863, “President’s Foreign Intelligence
          Advisory Board.” The Order requires the Inspectors General
          of the Intelligence Community to report to the Intelligence
          Oversight Board concerning intelligence activities that the
economy
          Inspectors General have reason to believe may be unlawful or
          contrary to Executive Order or Presidential Directive.

          Legislative Regulatory Review
          The OIG coordinated and reviewed 17 legislative and
          regulatory items, as required by the Inspector General Act of
          1978. The Act requires the OIG to review existing and
          proposed legislation and regulations relating to Department
          programs and operations and to comment on the impact
          which they may have on economical and efficient operations
          of the Department.




                                                                  33
                                                             At Your Service


                                   AUDIT REPORTS ISSUED IN THE FIRST HALF
Reports Issued
                                             OF FISCAL YEAR 2000
                    Report                                                                                     Questioned
                    Number                  Title                                 Date          Savings          Costs
                  HQ-L-00-01 Charitable Giving Require-                         03-14-00
                              ments in Department of Energy
                              Contracts
                  HQ-L-99-02 Audit of the Department of                         11-24-99
                              Energy’s Working Capital
                              Fund
                  CR-L-00-01 Survey of the Department’s                         11-05-99
                              Contract Clauses in M&O
                              Contracts
                  CR-L-00-02 Survey of the Department of                        11-12-99
                              Energy’s Travel Manager
                              System
                  CR-L-00-03 Federal Managers’ Financial                        02-15-00
                              Integrity Act Audit Report
                  CR-L-00-04 Department Programs in the                         03-08-00
                              Former Soviet Union
                  CR-FC-00-01 Federal Energy Regulatory                         02-14-00
                              Commission’s Fiscal Year
                              1999 Financial Statement
                              Audit
                  CR-FS-00-01 Management Report on Audit                        03-10-00
                              of the Department of Energy’s
                              Consolidated Financial
                              Statements for Fiscal Year
                              1999
                  ER-C-00-02 Indirect Costs for Fiscal Years                    03-17-00
                              1993 Through 1995 Princeton
                              University, Princeton, New
                              Jersey
                  ER-FC-00-01 U.S. Department of Energy                         11-08-99
                              Office of Environmental
                              Management Uranium
                              Enrichment Decontamination
                              and Decommissioning Fund
                              Financial Statements,
                              September 30, 1998



                 Additional information on the OIG, including the full text of its public reports and Department
34               management’s comments, can be found on the OIG website – www.ig.doe.gov
                                                 At Your Service

Reports Issued
                              AUDIT REPORTS ISSUED IN THE FIRST HALF
                                        OF FISCAL YEAR 2000
                   Report                                                              Questioned
                  Number                    Title                   Date     Savings     Costs
                 ER-FS-00-01 Results of Audit Procedures          03-23-00
                             Performed at the Strategic
                             Petroleum Reserve During the
                             Audit of the Department of
                             Energy’s Consolidated Fiscal
                             Year 1999 Financial Statements

                 ER-FS-00-02 Results of Audit Procedures          03-23-00
                             Performed at Savannah River
                             Operations Office During the
                             Audit of the Department of
                             Energy’s Consolidated Fiscal
                             Year 1999 Financial Statements

                 ER-FS-00-03 Results of Audit Procedures          03-23-00
                             Performed at Chicago Operations
                             Office During the Audit of the
                             Department of Energy’s
                             Consolidated Fiscal Year 1999
                             Financial Statements

                 ER-FS-00-04 Results of Audit Procedures          03-23-00
                             Performed at the Oak Ridge
                             Operations Office During the
                             Audit of Department of Energy’s
                             Consolidated Fiscal Year 1999
                             Financial Statements

                 ER-L-00-01    Strategic Petroleum Reserve        11-04-99
                               Royalty-In-Kind Oil Program
                 ER-L-00-02    Remediation of the Waste Pits at   11-09-99              $335,000
                               the Fernald Environmental
                               Management Project

                 ER-L-00-03    Implementation of the              11-29-99
                               Government Performance and
                               Results Act at the Oak Ridge
                               Operations Office


                                                                                            35
                                               At Your Service

Reports Issued
                          AUDIT REPORTS ISSUED IN THE FIRST HALF
                                    OF FISCAL YEAR 2000
                   Report                                                           Questioned
                  Number                    Title                Date     Savings     Costs
                 ER-V-00-01   Assessment of Changes to the     10-12-99
                              Internal Control Structure and
                              Their Impact on the
                              Allowability of Costs Claimed
                              and Reimbursed to West Valley
                              Nuclear Services, Inc., Under
                              Department of Energy Contract
                              No. DE-AC07-81NE44139
                 ER-V-00-02   Assessment of Changes to the     03-09-00
                              Internal Control Structure and
                              Their Impact on the
                              Allowability of Costs Claimed
                              by and Reimbursed to Dyn
                              McDermott Petroleum
                              Operations Company Under
                              Department of Energy Contract
                              No. DE-AC97-93PO1800
                 ER-V-00-03   Assessment of Changes to the     03-09-00
                              Internal Control Structure and
                              Their Impact on the
                              Allowability of Costs Claimed
                              by and Reimbursed to Argonne
                              National Laboratory Under
                              Department of Energy Contract
                              No. W-31-109-ENG-38
                 ER-V-00-04   Assessment of Changes to the     03-23-00             $1,538,183
                              Internal Control Structure and
                              Their Impact on the
                              Allowability of Costs Claimed
                              by and Reimbursed to Lockheed
                              Martin Energy Systems, Inc.
                              and Lockheed Martin Energy
                              Research Corporation Under
                              Department of Energy Contracts
                              No. DE-AC05-84OR21400 and
                              No. DE-AC05-96OR22464



36
                                                 At Your Service

Reports Issued
                             AUDIT REPORTS ISSUED IN THE FIRST HALF
                                       OF FISCAL YEAR 2000
                  Report                                                             Questioned
                  Number                   Title                 Date      Savings     Costs
                 WR-B-00-01 Analytical Laboratory              11-23-99   $2,625,000  $550,000
                            Capabilities at the Hanford Site
                 WR-B-00-02 Property and Facilities at         12-10-99    $360,000
                            Grand Junction
                 WR-B-00-03 Outsourcing Opportunities at       01-18-00
                            the Los Alamos National
                            Laboratory
                 WR-B-00-04 Staff Augmentation Workers at      03-23-00   $4,680,000
                            Sandia National Laboratories
                 WR-L-00-01 Nevada Operations Office’s         01-13-00
                            Grant and Cooperative
                            Agreement Administration
                 WR-L-00-02 Yucca Mountain Project             01-25-00
                            Viability Assessment Goals
                 WR-L-00-03 Work for Others at Sandia          02-17-00
                            National Laboratories

                 WR-L-00-04 Results of Audit Procedures        03-15-00
                            Performed at the Oakland
                            Operations Office During the
                            Audit of the Department’s
                            Consolidated Fiscal Year 1999
                            Financial Statements
                 WR-FS-00-01 Matters Identified at the         03-15-00
                             Hanford Site During the Audit
                             of the Department of Energy’s
                             Consolidated Fiscal Year 1999
                             Financial Statements
                 WR-FS-00-02 Matters Identified at the Idaho   03-20-00
                             Operations Office During the
                             Audit of the Department of
                             Energy’s Consolidated Fiscal
                             Year 1999 Financial
                             Statements


                                                                                          37
                                                At Your Service

Reports Issued
                            AUDIT REPORTS ISSUED IN THE FIRST HALF
                                      OF FISCAL YEAR 2000
                  Report                                                              Questioned
                  Number                  Title                Date      Savings        Costs
                 WR-V-00-01 Assessment of Changes to the     10-21-99                   $76,720
                            Internal Control Structure and
                            Their Impact on the
                            Allowability of Costs Claimed
                            by and Reimbursed to
                            Lockheed Martin Idaho
                            Technologies Company Under
                            Department of Energy
                            Contract Nos. DE-AC07-
                            94ID13223 and DE-AC07-
                            94ID13299
                 WR-V-00-02 Assessment of Changes to the     03-21-00
                            Internal Control Structure and
                            Their Impact on the
                            Allowability of Costs Claimed
                            by and Reimbursed to
                            Westinghouse Electric
                            Corporation, Waste Isolation
                            Division Under Department of
                            Energy Contract No. DE-
                            AC04-86AL3195
                 IG-FS-00-01 Audit of the U.S. Department    02-17-00
                             of Energy’s Consolidated
                             Financial Statements for
                             Fiscal Years 1999 and 1998
                 IG-0453      Waste Incineration at the      10-13-99 $175,002,120
                              Savannah River Site

                 IG-0454      Waste Incineration at the      12-15-99   $18,100,000
                              Idaho National Engineering
                              and Environmental
                              Laboratory
                 IG-0456      The Management of Tank         01-21-00
                              Waste Remediation at the
                              Hanford Site



38
                                                At Your Service

Reports Issued
                             AUDIT REPORTS ISSUED IN THE FIRST HALF
                                       OF FISCAL YEAR 2000
                    Report                                                             Questioned
                   Number                  Title                 Date     Savings        Costs
                 IG-0457      Follow-up Audit of Program      01-24-00
                              Administration by the Office
                              of Science
                 IG-0458      In-Vitro Bioassay Services at   02-15-00   $1,620,000
                              Department of Energy
                              Facilities
                 IG-0459      Unclassified Computer           02-15-00
                              Network Security at Selected
                              Field Sites
                 IG-0460      The Department’s                02-17-00   $5,300,000
                              Management and Operating
                              Contractor Make-or-Buy
                              Program
                 IG-0461      Groundwater Monitoring          02-22-00   $17,876,745
                              Activities at Department of
                              Energy Facilities
                 IG-0462      National Low-Level Waste        02-24-00   $ 3,283,900
                              Management Program
                 IG-0463      Commercial Off-the-Shelf        03-20-00   $38,200,000
                              Software Acquisition
                              Framework




                                                                                            39
                                                      At Your Service

Reports Issued
                            INSPECTION REPORTS ISSUED IN THE FIRST HALF
                                        OF FISCAL YEAR 2000 *
                     Report                                                              Questioned
                    Number                         Title               Date    Savings     Costs
                  INS-L-00-01         Inspection of Selected        11-22-99
                                      Issues Regarding the
                                      Groundwater Monitoring
                                      Program at the Los
                                      Alamos National
                                      Laboratory
                  INS-L-00-02         Alleged Misuse of IRAC        12-17-99
                                      Conversion Project Funds
                  INS-L-00-03         Inspection of Lawrence        02-24-00
                                      Livermore National
                                      Laboratory Travel Issues
                  INS-L-00-04         Inspection of Review of       03-13-00
                                      Applied Biophysical Lab
                                      at SNL
                  INS-O-00-01         Inspection of Selected        11-30-99
                                      Issues of the Chem-Bio
                                      Facility at the Oak Ridge
                                      National Laboratory
                  INS-O-00-02         Inspection of Alleged         12-16-99
                                      Improprieties Regarding
                                      Issuance of a Contract
                  IG-0455             Inspection of the Sale of a   12-22-99
                                      Paragon Supercomputer
                                      by Sandia National
                                      Laboratories
                  IG-0464             Follow-on Review of the       03-22-00
                                      Status of the U.S.
                                      Department of Energy’s
                                      Counterintelligence
                                      Implementation Plan
                  IG-0465             Inspection of the             03-23-00
                                      Department of Energy’s
                                      Export License Process
                                      for Foreign National
                                      Visits and Assignments




40
                 * Does   not include non-public reports.
                                                          At Your Service
Statistics
                                               AUDIT REPORT STATISTICS
                                                October 1, 1999, to March 31, 2000

                 The following table shows the total number of operational and financial audit reports,
                 and the total dollar value of the recommendations.


                                                            Total       One-Time          Recurring              Total
                                                           Number        Savings           Savings              Savings

                  Those issued before the re-
                  porting period for which no
                  management decision has
                                                              12      $288,894,160      $117,200,000 $406,094,160
                  been made:*

                  Those issued during the re-
                  porting period:                              43      $92,212,522      $177,335,146 $269,547,668

                  Those for which a manage-
                  ment decision was made dur-
                  ing the reporting period:*                   20     $229,249,184      $147,500,630 $376,749,814

                  Agreed to by management:                             $70,174,792      $122,472,630 $192,647,422


                  Not agreed to by manage-
                  ment:                                                $89,673,672       $23,732,000 $113,405,672

                  Those for which a manage-
                  ment decision is not required:               23        $1,873,183            $0              $1,873,183

                  Those for which no manage-
                  ment decision had been made
                  at the end of the reporting pe-
                  riod:*                                       12     $221,258,218      $148,330,516 $369,588,734



                   *The figures for dollar items include sums for which management decisions on the
                   savings were deferred.




             Additional information on the OIG, including the full text of its public reports and Department
             management’s comments, can be found on the OIG website – www.ig.doe.gov                                  41
                                                At Your Service
Statistics
                                       AUDIT REPORT STATISTICS
                                       October 1, 1999, to March 31, 2000

             The following table shows the total number of contract audit reports, and the total dollar
             value of questioned costs and unsupported costs.


                                                                Total Questioned Unsupported
                                                               Number   Costs       Costs

             Those issued before the reporting period
             for which no management decision has
             been made:                                            5      $6,552,760        $144,936


             Those issued during the reporting period:             1           $0             $0

             Those for which a management decision
             was made during the reporting period:                 3        $158,543         $60,695

             Value of disallowed costs:                                     $111,411          $7,930
             Value of costs not disallowed:                                  $47,132         $52,765

             Those for which a management decision is
             not required:                                         0           $0             $0

             Those for which no management decision
             had been made at the end of the reporting
             period:                                               3      $6,394,217         $84,241




  42
                                          At Your Service



             T
Statistics
                  he following are audit reports issued before the beginning of the reporting
             period for which no management decisions had been made by the end of the
             reporting period, the reasons management decisions had not been made, and the
             estimated dates (where available) for achieving management decisions. These
             audit reports are over 6 months old without a management decision. The
             Department has a system in place which tracks audit reports and management
             decisions. Its purpose is to ensure that recommendations and corrective actions
             indicated by audit agencies and agreed to by management are addressed and
             effected as efficiently and expeditiously as possible.

             The Contracting Officers have not yet made decisions on the following contract
             reports for the following reasons. They include delaying settlement of final costs
             questioned in audits pending completion of review of work papers and voluminous
             additional records.

             ER-CC-93-05           Report Based on the Application of Agreed-Upon
                                   Procedures With Respect To Temporary Living Allowance
                                   Costs Claimed Under Contract No. DE-AC09-88SR18035,
                                   October 1, 1987, to September 20, 1990, Bechtel National
                                   Inc., San Franciso, California, and Bechtel Savannah River,
                                   Inc., North Augusta, South Carolina, May 3, 1993
                                   (Estimated date of closure: September 30, 2000).

             WR-C-95-01            Independent Final Audit of Contract No. DE-AC34-
                                   RIRF00025, July 26, 1990, to March 31, 1993, Wackenhut
                                   Services, Inc., Golden, Colorado, March 14, 1999
                                   (Estimated date of closure: December 30, 2000).

             Additional time was necessary to develop management decisions for the following
             reports. Further explanations for the delays follow each audit report.

             CR-B-97-02            Audit of Department of Energy’s Contractor Salary Increase
                                   Fund, April 4, 1997. The finalization of the management
                                   decision on this report is awaiting resolution of one
                                   outstanding issue. It is estimated that this will occur by
                                   September 30, 2000.




                                                                                            43
                             At Your Service
Statistics
             ER-B-99-06   Bechtel Jacobs Payroll Creation, April 14, 1999. The
                          unresolved issues were presented to the Departmental
                          Internal Control and Audit Review Council. Department
                          Elements are being consulted on corrective action.
                          Resolution is expected to occur by June 30, 2000.

             IG-0411      Contractors Incentive Programs at the Rocky Flats Envi-
                          ronmental Technology Site, August 13, 1997. The final-
                          ization of the management decision on this report is
                          pending the resolution of one outstanding legal issue.
                          This should occur by September 30, 2000.

             IG-0430      The U.S. Department of Energy’s Project Hanford Man-
                          agement Contract Costs and Performance, November 5,
                          1998. The finalization of the management decision on
                          this report is pending concurrence by Department
                          Heads. This is expected to occur by April 30, 2000.

             IG-0440      Waste Treatment Plans at the Idaho National Engineer-
                          ing and Environmental Laboratory, February 4, 1999. A
                          final management decision is being reviewed by the nec-
                          essary Department Elements. It is estimated that this
                          will occur by May 30, 2000.

             CR-B-99-02   Management of Unneeded Materials and Chemicals,
                          September 30, 1999. The finalization of the manage-
                          ment decision is pending resolution of accountability
                          issues. It is estimated that this will occur by
                          December 30, 2000.




  44
                                                At Your Service


                                      INVESTIGATIVE STATISTICS
Statistics
                                        October 1, 1999, to March 31, 2000
             Investigations open at the start of this reporting period *                    228
             Investigations opened during this reporting period                              33
             Investigations closed during this reporting period                              55
             Investigations open at the end of this reporting period                        206
             Qui Tam investigations opened                                                    3
                 Total open Qui Tam investigations as of 3/31/00                             24
             Multi-agency task force investigations opened                                    8
                 Total open multi-agency task force investigations as of 3/31/00             65
             Investigative reports to prosecutors and Department management                   9
             Recommendations to management for positive change and other actions              7
             Administrative discipline and other management actions                           4
             Investigations referred for prosecution                                         12
                  Accepted **                                                                 8
                  Pretrial diversions                                                         2
                  Indictments                                                                 5
                  Criminal convictions                                                        6
                  Pretrial diversions                                                         1
                  Civil actions                                                               3
             Fines, settlements, recoveries ***                                     $36,206,005
             *   Total adjusted from prior reporting period.
             ** Some of the investigations accepted during the 6-month period were referred for
                 prosecution during a previous reporting period.
             *** Some of the money collected was the result of task force investigations.


                                                Hotline Statistics
             Hotline calls, letters, and other complaints                                   544
             Hotline calls, letters, and other complaints predicated                        261
             Hotline referrals received via the General Accounting Office                         1
             Unresolved complaints from previous reporting periods                              28
             Total Hotline actions predicated                                               290
             Investigations opened on Hotline complaints                                        19
             Hotline actions pending disposition                                                64
             Hotline actions transferred to the Management Referral System                  105
             Hotline actions that required no OIG activity                                  102
                Total Hotline actions disposition                                           290

                                                                                           45
                                                 At Your Service
Statistics
                                         INSPECTION STATISTICS
                                        October 1, 1999, to March 31, 2000


             Inspections open at the start of this reporting period                       47
             Inspections opened during this reporting period                              22
             Multiagency reviews completed                                                 2
             Inspections closed during this reporting period                              15
             Inspections open at the end of this reporting period                         54
             Reports issued (includes non-public reports)                                 17
             Inspection recommendations
                Accepted this reporting period                                             36
                Implemented this reporting period                                          43
             Qui Tams processed                                                             6
             Legislative and policy actions processed                                      17
             Funds recovered                                                         $713,537
             Complaints referred to Department management/others                          164
                 Referrals to Department management requesting a response
                  for OIG evaluation                                                      72
                 Management responses received                                            88




                                  Management Referral System
                              (complaints referred by major issue area)

                                   16                          Administrative
                                                               Safeguards
                                  1                            Contract/Grant
                                             6                 Administration
                               2                               Environment,
                                                               Safety, and Health
                               2                               Financial
                                                               Management
                                                       70      Information
                             27                                Technology Mgt.
                                                               Intelligence/
                                                               Counterintelligence
                                                               Program
                                                               Management
                                                               Safeguards and
                                        40                     Security




 46
                                       At Your Service



                      Feedback Sheet
The contents of the April 2000 Semiannual Report to Congress comply with the require-
ments of the Inspector General Act of 1978, as amended. However, there may be addi-
tional data which could be included or changes in format which would be useful to recipi-
ents of the Report. If you have suggestions for making the Report more responsive to your
needs, please complete this feedback sheet and return it to:

                              Department of Energy
                              Office of Inspector General (IG-121)
                              Washington, D.C. 20585

                              ATTN: Wilma Slaughter




 Your name:

 Your daytime telephone number:

 Your suggestion for improvement: (please attach additional sheets if needed)




 If you would like to discuss your suggestion with a staff member of the Office of In-
 spector General or would like more information, please call Wilma Slaughter at
 (202) 586-1924 or contact her on the Internet at wilmatine.slaughter@hq.doe.gov.



                                                                                         47
